     AUDIT OF OFFICE OF COMMUNITY
ORIENTED POLICING SERVICES TECHNOLOGY
   PROGRAM GRANTS AWARDED TO THE
   CITY OF ALBUQUERQUE, NEW MEXICO




       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


       Audit Report GR-60-11-013
              August 2011
    AUDIT OF OFFICE OF COMMUNITY ORIENTED POLICING
 SERVICES TECHNOLOGY PROGRAM GRANTS AWARDED TO THE
           CITY OF ALBUQUERQUE, NEW MEXICO


                           EXECUTIVE SUMMARY

       The Office of the Inspector General, Audit Division, has
completed an audit of the Office of Community Oriented Policing
Services (COPS) grants awarded to the City of Albuquerque,
New Mexico (City). The grants audited were COPS Technology Grant
Nos. 2006-CK-WX-0131, in the amount of $296,168, which was
intended to upgrade mobile computer terminals; 2008-CK-WX-0553,
in the amount of $2,057,660, which was intended to upgrade
Albuquerque Police Department’s (APD) existing radio frequency
infrastructure; 2008-CK-WX-0554, in the amount of $222,134, which
was intended to procure crime analysis software and related hardware;
2009-CK-WX-0441, in the amount of $500,000, which was intended to
procure a server, plotter, and 57 desktop computers, and fully fund a
new APD Technology Manager position to oversee the APD’s
Comprehensive Information System Project (CISP); and
2010-CK-WX-0033, in the amount of $400,000, which was intended to
fund storage area networks (SANs) for data and video, procure
analytical reporting tools, and train staff on use of the SANs and
analytical tools. These grants were targeted funding through annual
appropriations. 1

       COPS is the component of the U.S. Department of Justice (DOJ)
responsible for advancing the practice of community policing by the
nation’s state, local, territory, and tribal law enforcement agencies
through information and grant resources. COPS awards grants to
state, local, territory, and tribal law enforcement agencies to hire and
train community policing professionals, acquire and deploy
cutting-edge crime-fighting technologies, and develop and test
innovative policing strategies. Since 1994, COPS has invested more
than $15 billion to add community policing officers to the nation’s
streets, enhance crime-fighting technology, support crime prevention


       1
          All five grants awarded to the City of Albuquerque by COPS in the scope of
this audit were hard earmarks, which were awarded through Congressional
appropriations in the federal government’s annual budget. Hard earmarks are binding
and have the effect of law, and are awarded without regard to unresolved OIG audit
findings or granting agency noncompliance bars to grant funding.
initiatives, and provide training and technical assistance to help
advance community policing.

       COPS Technology grants provide funding for the continued
development of technologies and automated systems to assist state,
local, and tribal law enforcement agencies in investigating, responding
to, and preventing crime. This funding has allowed recipients the
opportunity to establish and enhance a variety of technical equipment
and/or programs to encourage the continuation and enhancement of
community policing efforts within their jurisdictions.

       The City of Albuquerque is the largest metropolitan statistical
area in the State of New Mexico with a population of 545,852 in an
area of 181 miles. The APD is a department of the City with a staff of
1,107 police officers and 605 civilian personnel, and a FY 2011 budget
of $145 million. APD facilities include the police headquarters, six area
command substations, and five community substations. APD operates
755 marked vehicles and 231 unmarked vehicles, and maintains the
state’s largest law enforcement database. According to the City’s
grant applications, the COPS grant funds were to be used to develop
and maintain the APD’s CISP. Generally, COPS grant-related activities
for CISP are managed by APD personnel, although grant accounting
and financial functions are shared between APD personnel and the
City’s accounting department. 2 CISP was intended to be a paperless
and fully automated records management system, taking advantage of
current technologies to support electronic sharing of data.

      COPS recently imposed a 4-year General Compliance Bar on the
City of Albuquerque for supplanting. The City is under a bar from
receiving COPS grants from September 2, 2010 to September 1, 2014.
The bar is not applicable to COPS grants that are received through
congressional earmarks.

      The purpose of this audit was to determine whether
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants, and to determine
program performance and accomplishments. The objective of our

       2
         The COPS grants in this audit were awarded to the City of Albuquerque. The
Albuquerque Police Department is a department of the City, and APD officials managed
the grant funded projects, while grant application, accounting, drawdown, and
oversight functions occurred through the City.


                                       - ii -
audit was to review performance in the following areas: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, including
personnel and indirect costs, (4) budget management and control,
(5) matching, (6) property management, (7) program income,
(8) financial status and progress reports, (9) grant requirements,
(10) program performance and accomplishments, and (11) monitoring
of subgrantees and contractors. We determined matching costs,
indirect costs, and monitoring of contractors and subgrantees were not
applicable to these grants. As shown in Table 1, the City was awarded
a total of $3,475,962 to implement the grant programs.

                           TABLE 1
      OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
         GRANTS AWARDED TO THE CITY OF ALBUQUERQUE
                       AWARD        AWARD
     GRANT AWARD     START DATE    END DATE   AWARD AMOUNT
   2006-CK-WX-0131    11/22/05     11/21/08      $ 296,168
   2008-CK-WX-0553    12/26/07     06/25/12       2,057,660
   2008-CK-WX-0554    12/26/07     06/25/12         222,134
   2009-CK-WX-0441    03/11/09     03/10/12         500,000
   2010-CK-WX-0033    12/16/09     12/15/12         400,000
                                       Total:   $3,475,962
Source: COPS

     We examined the City’s grant accounting records, financial and
progress reports, and operating policies and procedures and found:

   •   delays of up to 14 months in posting of journal entries for grant
       expenditures to the grant general ledgers, which affected
       accuracy of drawdowns and financial reports,

   •   $4,922 in unallowable wage expenditures for Grant
       No. 2009-CK-WX-0441 for wages paid before the employee’s
       effective start date and in excess of salary,

   •   indicators of supplanting in the amount of $94,501 for Grant No.
       2009-CK-WX-0441 for wages and fringe benefits for an
       administrative transfer to a grant funded position from a position
       that was not backfilled for 7 months after the transfer,

   •   five of 38 weekly timesheets for the Technology Manager were
       not signed by a supervisor,




                                  - iii -
•   $445 in unallowable Unemployment fringe benefit expenditures
    were charged to Grant No. 2009-CK-WX-0441 in an unapproved
    budget category,

•   $379 in unallowable Basic Life fringe benefit expenditures were
    charged to Grant No. 2009-CK-WX-0441 in an unapproved
    budget category,

•   biweekly fringe benefit expenditures charged to Grant No.
    2009-CK-WX-0441 varied between $0 and $5,986 and generally
    exceeded budget percentages, with the exception of Social
    Security and Medicare expenditures, which were budgeted at
    7.65 percent and averaged 6.99 percent,

•   biweekly payroll expenditures for Grant No. 2009-CK-WX-0441
    were higher than budgeted, but would not exceed the budgeted
    amount until September 2012,

•   biweekly fringe benefit expenditures for Grant No.
    2009-CK-WX-0441 were higher than budgeted, but would not
    exceed the budgeted amount until January 2013,

•   equipment purchased with Grant No. 2006-CK-WX-0131 was not
    specifically identifiable or adequately monitored,

•   for Grant No. 2006-CK-WX-0131, City officials did not seek or
    obtain approval from COPS prior to a $296,168 sole source
    expenditure,

•   for multiple grants, publications created with grant funds were
    not previously approved by COPS and did not contain specific
    language required by grant conditions,

•   for Grant Nos. 2006-CK-WX-0131 and 2010-CK-WX-0033, the
    State of New Mexico Information Technology Point of Contact
    was not notified by City officials of the grant award, as required
    by grant conditions, and

•   despite a previous 18 month end date extension, Grant
    No. 2008-CK-WX-0553 could not be completed in the remaining
    time to the grant’s current end date, according to the original
    project schedule.




                                - iv -
     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                -v-
                      TABLE OF CONTENTS
INTRODUCTION ........................................................................ 1
     Background.......................................................................... 2
     Our Audit Approach............................................................... 4
FINDINGS AND RECOMMENDATIONS ....................................... 5
     Internal Control Environment ................................................. 5
          Single Audit ................................................................... 5
          Financial Management System.......................................... 9
     Drawdowns ......................................................................... 10
     Transaction Testing .............................................................. 11
     Budget Management and Control ........................................... 12
     Headcount and Payroll .......................................................... 14
     Accountable Property ........................................................... 18
     Reporting ........................................................................... 20
          Financial Status Reports ................................................. 20
          Program Progress Reports ............................................... 23
     Compliance with Grant Requirements ..................................... 25
     Program Performance and Accomplishments ........................... 27
     Recommendations ............................................................... 29
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ........ 31
APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ..... 33
APPENDIX III: COPS RESPONSE TO DRAFT REPORT ............... 34
APPENDIX IV: ALBUQUERQUE RESPONSE TO DRAFT REPORT. 41
APPENDIX V: ACTIONS NECESSARY TO CLOSE THE REPORT ... 46
                          INTRODUCTION

       The Office of the Inspector General, Audit Division, has
completed an audit of Office of Community Oriented Policing Services
(COPS) grants awarded to the City of Albuquerque, New Mexico (City).
The grants audited were COPS Technology Grant
Nos. 2006-CK-WX-0131, in the amount of $296,168, which was
intended to upgrade mobile computer terminals; 2008-CK-WX-0553,
in the amount of $2,057,660, which was intended to upgrade APD’s
existing radio frequency infrastructure; 2008-CK-WX-0554, in the
amount of $222,134, which was intended to procure crime analysis
software and related hardware; 2009-CK-WX-0441, in the amount of
$500,000, which was intended to procure a server, plotter, and 57
desktop computers, and fully fund a new APD Technology Manager
position to oversee the Albuquerque Police Department’s (APD’s)
Comprehensive Information Systems Project (CISP); and
2010-CK-WX-0033, in the amount of $400,000, which was intended to
fund storage area networks (SANs) for data and video, procure
analytical reporting tools, and train staff on use of the SANs and
analytical tools. These grants were targeted funding through annual
appropriations.

       The purpose of this audit was to determine whether
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants, and to determine
program performance and accomplishments. The objective of our
audit was to review performance in the following areas: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, including
personnel and indirect costs, (4) budget management and control,
(5) matching, (6) property management, (7) program income,
(8) financial status and progress reports, (9) grant requirements,
(10) program performance and accomplishments, and (11) monitoring
of subgrantees and contractors. We determined matching costs,
indirect costs, and monitoring of contractors and subgrantees were not
applicable to these grants. As shown in Table 1, the City of
Albuquerque was awarded a total of $3,475,962 to implement the
grant programs.
                           TABLE 1
      OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
         GRANTS AWARDED TO THE CITY OF ALBUQUERQUE
                       AWARD        AWARD
     GRANT AWARD     START DATE    END DATE   AWARD AMOUNT
   2006-CK-WX-0131    11/22/05     11/21/08      $ 296,168
   2008-CK-WX-0553    12/26/07     06/25/12       2,057,660
   2008-CK-WX-0554    12/26/07     06/25/12         222,134
   2009-CK-WX-0441    03/11/09     03/10/12         500,000
   2010-CK-WX-0033    12/16/09     12/15/12         400,000
                                       Total:   $3,475,962
Source: COPS

Background

       COPS is the component of the U.S. Department of Justice (DOJ)
responsible for advancing the practice of community policing by the
nation’s state, local, territory, and tribal law enforcement agencies
through information and grant resources. COPS awards grants to
state, local, territory, and tribal law enforcement agencies to hire and
train community policing professionals, acquire and deploy
cutting-edge crime-fighting technologies, and develop and test
innovative policing strategies.

       Since 1994, COPS has invested more than $15 billion to add
community policing officers to the nation’s streets, enhance
crime-fighting technology, support crime prevention initiatives, and
provide training and technical assistance to help advance community
policing. COPS Technology grants provide funding for the continued
development of technologies and automated systems to assist state,
local, and tribal law enforcement agencies in investigating, responding
to, and preventing crime. This funding has allowed recipients the
opportunity to establish and enhance a variety of technical equipment
and/or programs to encourage the continuation and enhancement of
community policing efforts within their jurisdictions. COPS developed
this grant program to place departments at the forefront of innovative
technological developments.

      The City of Albuquerque is the largest metropolitan statistical
area in the State of New Mexico with a population of 545,852 in an
area of 181 miles. The City is governed by a Mayor, Chief
Administrative Officer, Chief Public Safety Officer, and a nine member

                                    2
City Council. The APD is a department of the City with a staff of 1,107
police officers and 605 civilian personnel, and a FY 2011 budget of
$145 million. APD facilities include the police headquarters, six area
command substations, and five community substations. APD operates
755 marked vehicles and 231 unmarked vehicles, and maintains the
state’s largest law enforcement database. According to the APD’s
strategic plan, Community Policing is a partnership between APD and
other city agencies, citizens, private sector organizations, and state
and federal government agencies. The partnership is intended to use
community involvement and aggressive enforcement of laws to
identify and eradicate crime.

      The City used COPS grant funds to develop and maintain the
APD’s CISP. Generally, COPS grant-related activities for CISP are
managed by APD personnel, although grant accounting and financial
functions are shared between APD personnel and the City’s accounting
department. According to the grant applications, APD determined a
need for a modernized records management system, as the prior
system in use did not provide for paperless reporting nor did it support
electronic sharing of data within APD or with other law enforcement
agencies. APD performed a needs assessment for a fully-automated
information system, including Police Records Management and
Reporting System and a Police and Fire Computer-Aided Dispatch and
Mobile Data Computing system. The CISP was intended to be
paperless and fully automated, taking advantage of current
technologies to make information from many data sources available to
police working in patrol and investigative assignments.

      COPS recently imposed a four-year General Compliance Bar on
the City of Albuquerque for supplanting. The City is under a bar from
receiving COPS grants from September 2, 2010 to September 1, 2014.
The bar is not applicable to COPS grants that are received through
Congressional earmarks.

      At the time of our audit, the City of Albuquerque was assessed
as high risk by COPS and the Office of Justice Programs (OJP).




                                   3
Our Audit Approach

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our
report, the criteria we audit against are contained in the COPS
Technology Program Grant Owner’s Manuals and the grant award
documents. We tested the City’s:

  •   internal control environment to determine whether the
      internal controls in place for the processing and payment of
      funds were adequate to safeguard grant funds and ensure
      compliance with the terms and conditions of the grants;

  •   grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the City was managing grant
      receipts in accordance with federal requirements;

  •   grant expenditures to determine the accuracy and allowability
      of costs charged to the grants;

  •   Financial Status Reports and Program Progress Reports to
      determine if the required reports were submitted on time and
      accurately reflect grant activity; and

  •   grant objectives and accomplishments to determine if the
      City met or is capable of meeting the grants’ objectives.


     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                   4
                  FINDINGS AND RECOMMENDATIONS

     We found that the City of Albuquerque generally had adequate
     financial management procedures for purchasing, receiving, and
     payment; however, we found delays of up to 14 months in
     posting journal entries for grant expenditures to the grant
     general ledgers which affected accuracy of drawdowns and
     financial reports. Further, we identified $4,922 in unallowable
     wages and fringe benefits paid prior to the effective start date
     for a grant funded position, and an additional $94,501 in
     unallowable wages and fringe benefits resulting from the position
     not being backfilled. We also found that the City was not
     monitoring grant budgets for classification and allowability of
     expenditures. We found that the City was behind schedule in
     implementing the grant objectives for all four of the grants
     audited and for one grant, we found that the grant objectives
     will not be achievable under the established grant timelines.

Internal Control Environment

      We reviewed the City’s financial management system, policies and
procedures, and Single Audit Reports to assess the City’s risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the grant. We interviewed APD grant management personnel and
program management personnel, and individuals from City departments,
including accounting, inventory, and human resources, and observed
accounting activities to further assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
an entity expending more than $500,000 in federal funds in a year is
required to perform a Single Audit annually, with the report due no later
than nine months after the end of the fiscal year. In fiscal year (FY) 2009,
the City’s Single Audit Report indicated that $91,051,913 in federal funds
were expended by the City, which required performance of a Single Audit.
The City’s fiscal year runs from July 1 through June 30. Therefore, the
Single Audit Report for the City is due by March 31 of the following year.




                                      5
      We received the City’s Single Audit Reports for FYs 2008 and 2009.3
We found the FY 2008 Single Audit Report was submitted on March 31,
2009, and was therefore timely. However, the FY 2009 Single Audit Report
was not submitted until December 21, 2010, more than eight months late.
According to the FY 2009 Single Audit Report, the delay was caused by
implementation of a new general ledger and accounting system on
January 1, 2009. City personnel were unable to close the books in a timely
manner and have records ready for audit, due to numerous problems after
the conversion.

        The FY 2009 Single Audit Report indicated one finding related to the
City’s management of grant funds and four findings related to federal
programs, including one finding specifically related to COPS grants. The
following findings were reported in the FY 2009 Single Audit Report; Finding
01-18 regarding COPS grants and Finding 06-16 regarding operating grant
fund accounting directly impacted this audit. The other three findings had
little impact on this audit, but indicated issues related to oversight and
accounting by City officials of programs of other federal agencies.

   •     Finding 01-18 Federal Claim – U.S. Department of Justice –
         COPS Universal Hiring Grant CFDA No. 16.710 – In 2001, the U.S.
         Department of Justice questioned how $4,152,447 in COPS grant
         money was spent by the City. The City disagrees with a large portion
         of the questioned amount – the City reimbursed DOJ $151,636 and did
         not anticipate further reimbursement, and was awaiting final
         determination from DOJ. City management responded that they
         concurred with the Single Audit Report finding and that they believed
         COPS would be working with DOJ to close open recommendations.
         Management also responded that the City has been awarded COPS
         grants since 2001. 4 This was a repeated finding and recommendation
         from the FY 2008 Single Audit Report.


         3
             The Single Audit Report for FY 2010 was not due nor completed at the time of our
audit.
         4
          All five grants awarded to the City of Albuquerque by COPS in the scope of this audit
were hard earmarks, which were awarded through Congressional appropriations in the federal
government’s annual budget. Hard earmarks are binding and have the effect of law, and are
awarded without regard to unresolved OIG audit findings or granting agency noncompliance
bars to grant funding.




                                                 6
             In resolution to the DOJ report described in this finding, in
       September 2010, COPS imposed a 4-year General Compliance Bar on
       the City of Albuquerque for supplanting. The City is under a bar from
       receiving COPS grants from September 2, 2010 to September 1, 2014.
       The bar is not applicable to COPS grants that are received through
       congressional earmarks. 5

   •   Finding 06-16 Operating Grants Fund Balance – “In prior year
       audits, it was noted that there was a remaining fund balance in the
       Operating Grants fund and the City had not identified the cause and/or
       source of the fund balance. In the current year, the city has been able
       to identify a portion of the fund balance remaining in the fund.” The
       Single Audit Report indicated that this finding was caused by
       decentralized accounting and lack of adequate resources and requisite
       skills by accounting personnel. City management responded that they
       concurred with the finding and were working to account for excess
       grant funds, but did not believe that any amounts were due back to
       funding agencies. This was a repeated finding and recommendation
       from the FY 2008 Single Audit Report.

   •   Finding 07-09 Schedule of Expenditures of Federal Awards
       (SEFA) – Section 8 Housing Choice Voucher CFDA 14.871,
       Community Development Block Grant CFDA 14.218, Airport
       Improvement Grant CFDS No. 20.106 – “…we noted current year
       federal expenditures reported on the SEFA that did not agree to the
       general ledger detail support.” The auditors reported that federal
       grant reporting is decentralized, with information reported by
       individual City departments to accountants, with no process for
       accountants to verify the accuracy of information provided.
       Additionally, federal and non-federal expenditures were not separately
       tracked in the general ledger. City management responded that they
       concurred with the finding and created a new Grant Administration
       Section to assist in accurate recording and tracking of federal
       expenditures. This was a repeated finding and recommendation from
       the FY 2008 Single Audit Report.



       5
         City officials were notified by COPS of the award of Grant No. 2010-CK-WX-0033 on
September 3, 2010. The award letter was dated one day after the start date of the four-year
compliance bar on the City; however, the grant was awarded through a Congressional
earmark.


                                             7
   •   Finding 09-12 Section 8 Housing Choice Voucher Eligibility
       Deviations-CFDA No. 14.871 – “…we noted 1 deviation out of the 25
       items tested relating to the annual inspections to ensure the unit
       meets…Standards and the quality control reinspections.” “The City is
       not in compliance with OMB A-133 Single Audit requirements.” City
       management responded that they concurred with the finding and were
       in the process of creating a HUD-funded position to review inspection
       files.

   •   Finding 09-23 FDS Reporting - U.S. Dept of Housing and Urban
       Development- Public Housing - Low Rent Operating Subsidy
       Program. CFDA No. 14.850 – “…the Financial Data Schedule (FDS)
       was not submitted to HUD as of date of audit field work – 15 months
       after year-end.” City management responded that they concurred
       with the finding and had resolved a majority of the general ledger
       issues that resulted from the PeopleSoft conversion.

      The FY 2009 Single Audit Report also indicated findings related to
overall report timeliness, asset monitoring, and accounting by the City of
Albuquerque. These findings indicated issues related to oversight and
accounting by the City and have potential impact on DOJ grants.

   •   Finding 05-13 Audit Report Due Date – “The report was not
       submitted by the due date. It was received by the New Mexico Office
       of the State Auditor in November 2010.” City management responded
       that they concurred with the finding and were taking actions to
       prevent late reports in the future. This was a repeated finding and
       recommendation from the FY 2008 Single Audit Report.

   •   Finding 08-13 Capital Assets Additions – “Out of the 25 additions
       tested, one capitalized asset…was found not to be tagged with a City
       issued tag or some identifying traceable characteristics.” City
       management responded that they concurred with the finding and
       would review the fixed asset tagging procedures and provide training
       to all departments on proper accounting of fixed assets. This was a
       repeated finding and recommendation from the FY 2008 Single Audit
       Report.

   •   Finding 09-03 Incorrect Account Classification – Twelve
       transactions from a sample of 100 transactions related to travel cards
       and cash receipts were improperly posted into the General Ledger.


                                       8
      City management responded that they concurred with the finding and
      would review existing internal control procedures.

  •   Finding 09-04 Payroll - Lack of Approval – 1 of 25 payroll
      transactions reviewed was not signed by the employee or supervisor.
      City management responded that they concurred with the finding and
      would review Personnel Rules and Regulations with supervisors and
      timekeepers.

  •   Finding 09-14 Accurate and Timely Budget to Actual
      Information – “The expenditure data for the budget to actual reports
      for the City…was not available in a timely manner throughout FY2009
      to ensure that expenditures did not exceed amounts budgeted.” City
      management responded that they concurred with the finding and will
      be closing the general ledger on a monthly basis to ensure that
      managers have accurate and timely data for budget to actual analysis.

  •   Finding 09-15 Timely Closing of General Ledger and
      Reconciliation of Subsidiary Ledgers – “The general ledger for
      fiscal year ending June 30, 2009, was not closed until July 2010. We
      also noted that various subsidiary ledgers were not timely reconciled
      to the general ledger.” City management responded that they
      concurred with the finding and had resolved a majority of the general
      ledger issues that resulted from the PeopleSoft conversion, and were
      developing a monthly closing process. Additionally, some City
      departments do not use the PeopleSoft system; their transactions are
      recorded in PeopleSoft through journal entries.

Financial Management System

       Our review of the City’s financial management system indicated the
City’s accounting system is decentralized. APD’s Planning Section tracks
grant expenditures and encumbrances using a different system than the
City’s Accounting Department. This requires periodic reconciliation of the
two systems, particularly when financial status reports and drawdown
requests are prepared. The City changed accounting systems in early 2009
and personnel stated there were difficulties with implementation of the new
system, which created the environment for the discrepancies noted in the
Drawdowns, Headcount and Payroll, and Reporting sections of this report.




                                     9
      We determined there appears to be adequate separation of accounting
duties. APD procurement procedures appeared to be adequate, with
multiple levels of approval and oversight, and receiving procedures appeared
to be adequate to trace received items. Payment procedures include
authorization and verification, and appear adequate. Accounting personnel
provided us with a draft administrative instruction issuing guidance to City
personnel regarding grant application, accounting, and monitoring
procedures. We determined the document appears adequate to assist with
proper grant management procedures.

Drawdowns

      We determined three of the five grants in the scope of our audit had
drawdown activity. City officials stated drawdowns were based on actual
expenditures in the accounting records. We reviewed grant accounting
records and compared expenditures to actual drawdowns and found
drawdowns did not exceed expenditures for Grant Nos. 2006-CK-WX-0131
and 2009-CK-WX-0441. However, as shown in Table 2, we found excess
drawdowns for Grant No. 2008-CK-WX-0554. Specifically, we found a
drawdown on November 18, 2009 exceeded periodic grant expenditures by
$1,008, and a drawdown on March 1, 2010 exceeded periodic grant
expenditures by $1,008. We determined the two excess drawdowns were
due to overhead expenditures that had been incorrectly allocated to the
grant in the general ledger; those expenditures were later removed from
grant accounting records by grant personnel, prior to our audit.




                                    10
                              TABLE 2
              COMPARISON OF DRAWDOWNS TO ACCOUNTING
               RECORDS FOR GRANT NO. 2008-CK-WX-0554 6
                              EXPENDITURES                       IF DRAWDOWN
                                    PER         DIFFERENCE          EXCEEDS
                               ACCOUNTING        BETWEEN         EXPENDITURES;
  DATE OF        AMOUNT        RECORDS FOR      DRAWDOWNS       FUNDS OBLIGATED      EXCESS
 DRAWDOWN       DRAWN PER      DRAWDOWN              AND         WITHIN 10 DAYS      CASH ON
  PER OJP          OJP           PERIOD         EXPENDITURES      OF DRAWDOWN         HAND
 11/18/2009        $ 49,029         $ 48,021          $ 1,008               $0        $ 1,008
 03/01/2010          49,029           48,021            1,008                 0           1,008
TOTAL             $98,059           $96,042           $2,017                $0        $2,017
Source: OJP, COPS, and City of Albuquerque, NM

       Although the excess drawdowns were corrected, we found conditions
existed that allowed the excess drawdowns to occur. Specifically, we
identified delays by City accounting personnel in posting of journal entries to
the general ledger. For the excess drawdown of $1,008, the original journal
entry occurred on September 15, 2009 and was posted to the general ledger
on September 17, 2009; however, the correcting journal entry to remove
overhead from the grant accounting records occurred on September 30,
2009, but was not posted to the general ledger until December 4, 2010,
over 14 months later. Similarly, the second excess drawdown was corrected
on December 31, 2009, 7 days after the incorrect transaction was posted to
the general ledger, but the correcting entry was not posted until December
4, 2010, nearly 1 year later. City officials stated the 2009 change in
accounting systems caused delays between transaction entry dates and the
date the entry was posted to the general ledger for that year, but that most
transactions were being posted timely at the time of our audit. However, we
identified transactions in the grant ledger that were still delayed in posting,
including $16,673 of wage and fringe benefit journal entries dated July 1,
2010 that did not post to the general ledger until May 17, 2011, a lag of
nearly 11 months.

Transaction Testing

       We reviewed the general ledger account for each grant and identified a
total of eight non-personnel transactions for the five grants audited. Grant
No. 2006-CK-WX-0131 had one transaction, Grant No. 2008-CK-WX-0554

      6
          Throughout this report, differences in the total amounts are due to rounding.

                                               11
had five transactions, and Grant No. 2009-CK-WX-0441 had two
transactions. The City’s general ledger for Grant No. 2010-CK-WX-0033
indicated a $15 expenditure for ‘FICA,’ which we determined was mistakenly
assessed to the grant, as we did not identify any transactions for Grant Nos.
2008-CK-WX-0553 and 2010-CK-WX-0033. We sampled 100 percent of the
grant funded transactions and determined purchases were properly
authorized and supported. However, we found three discrepancies that were
related to how the City records warranty expenditures in relation to
approved grant budget categories. These discrepancies are described in
detail in the Budget Management and Control section of this report.

Budget Management and Control

       As stated previously, the funding of the five COPS grants awarded to
the City of Albuquerque totaled $3,475,962. As shown in Table 3, the City
has only expended $540,690 of these funds. At the time of this audit, we
found that the City expended $296,168 awarded under Grant
No. 2006-CK-WX-0131.7 For the four active COPS grant awards, we found
the City had only expended $244,522, or 7.68 percent, of the $3,179,794
awarded. Although we determined all approved categories were under
budget, we identified four discrepancies related to budget category
classification in the control and management of the approved budget:

  •   For Grant No. 2008-CK-WX-0554, we identified one transaction,
      totaling $517, for the warranty of equipment purchased with grant
      funds that was miscategorized by City grant personnel in the
      ‘Equipment’ grant budget category. In our judgment, warranty
      purchases should have been recorded in the ‘Other’ grant budget
      category. City officials stated their account descriptions do not always
      match up with grant budget categories; however, the $517 in warranty
      expenditures were not allowable for this grant, as the ‘Other’ budget
      category was not approved for this grant.

  •   For Grant No. 2009-CK-WX-0441, we found one transaction totaling
      $6,243 was recorded by City officials in the ‘Supplies’ grant budget
      category, which was not an approved budget category for this grant.
      In our judgment, the expenditure should have been recorded as
      $5,394 for ‘Equipment’ and $849 for ‘Other,’ to record a warranty on
      the equipment purchased. Additionally, we identified a second

      7
          COPS closed Grant No. 2006-CK-WX-0131, on April 14, 2009.


                                           12
       transaction totaling $7,722 that was recorded in the ‘Equipment’ grant
       budget category. We determined the expenditure should have been
       recorded as $6,606 for ‘Equipment’ and $1,116 for ‘Other,’ to record a
       warranty on the equipment purchased. City officials stated their
       account descriptions do not always match up with grant budget
       categories. In our judgment, warranty expenditures within the ‘Other’
       grant budget category were allowable for this grant, and the budget
       category for these two expenditures should have totaled $1,965.

   •   For Grant No. 2009-CK-WX-0441, we found one transaction was
       charged to the grant for $678 for indirect overhead. Indirect costs
       were not an approved budget category for this grant.

                              TABLE 3
                   BUDGET MANAGEMENT AND CONTROL

                         BUDGET                               ACTUAL       OVER (UNDER)
    GRANT NO.           CATEGORY        GRANT BUDGET       EXPENDITURES       BUDGET
2006-CK-WX-0131
                      Equipment         $     296,168      $     296,168          $    -
                      TOTAL                  296,168            296,168                -
2008-CK-WX-0553
                      Equipment              2,057,660                 -     (2,057,660)
                      TOTAL                 2,057,660                  -    (2,057,660)
2008-CK-WX-0554
                      Equipment               222,134            106,710      (115,424)
                      TOTAL                  222,134            106,710      (115,424)
2009-CK-WX-0441
                      Personnel               375,771            123,847      (251,924)
                      Equipment               114,651              7,722      (106,929)
                      Supplies                      -              6,243          6,243
                      Other                     9,578                  -        (9,578)
                      TOTAL                  500,000            137,812      (362,188)
2010-CK-WX-0033
                      Travel/Training             19,864               -        (19,864)
                      Equipment                  245,135               -       (245,135)
                      Consultants/
                      Contractual             135,001                  -      (135,001)
                      TOTAL                  400,000                   -     (400,000)
ALL GRANTS
                      TOTAL              $3,475,962            $540,690    $(2,935,272)
Source: OJP, COPS, and City of Albuquerque, NM




                                            13
Headcount and Payroll

       Four of the five grants in this audit did not include personnel
expenditures in the grant application or budget and we did not identify
personnel costs related to those grants. Grant No. 2009-CK-WX-0441 was
budgeted to include wages and fringe benefits for one employee, an APD
Technology Manager to oversee the CISP, who was to be 100 percent funded
by the grant. The grant budget included $253,968 for 3 years of wages for
the Technology Manager, as well as $121,803 for 3 years of fringe benefits.
APD officials and grant personnel were unable to provide verifiable
information regarding the Technology Manager hiring process, start date, or
any related employment documentation, but we were able to obtain
sufficient documentation from City officials to conduct our analysis of
personnel paid with grant funds.

Excessive Wage Expenditures

       City officials provided documentation that the Technology Manager’s
effective date was June 5, 2010. However, payroll records charged to APD
for the Technology Manager include the pay period ending June 4, 2010,
when a wage payment of $4,489 was charged to APD. We also identified
one pay period that included an extra day of wages – an extra amount of
$433 appeared in the paycheck record for October 22, 2010 and the payroll
journal and general ledger for January 28, 2011. We determined these
accounting entries all represent the same item that was entered into
different data sources at different dates. By subtracting the unallowable
$4,489 payment made prior to the employee’s effective date and the $433
payment that was made in excess of salary, we calculated that the accurate
wages that should have been paid to the Technology Manager were $82,622.
Therefore, we question the excess amount of $4,922 as unallowable, as it
included wages charged to the grant before the Technology Manager began
performing the grant funded position, as well as wages charged to the grant
for an 11th day in a 10-day pay period.




                                    14
Indicators of Supplanting in Wages and Fringe Benefits

      COPS Technology Program grant funds must be used to supplement,
not supplant, the recipient’s own funding. According to the 2009 COPS
Technology Program Grant Owner’s Manual:

      Each individual employed under the Technology Program is newly hired
on or after the grant award start date, unless an exception is authorized in
writing by the COPS Office. If current personnel are redeployed into this
program, they must be paid with local funds. The COPS grant funds may be
used to backfill the resulting vacancy with newly hired personnel for an
equivalent amount of time.

       City officials provided documentation that the employee who filled
APD’s Technology Manager position was administratively transferred from
another city position, with an effective start date of June 5, 2010 as
Technology Manager. City officials also provided documentation that a new
employee was hired to fill the Technology Manager’s former position, at a
slightly lower wage rate. The new employee’s effective date was January 1,
2011. Based on the requirements noted above from the 2009 COPS
Technology Program Grant Owner’s Manual, we determined the Technology
Manager position should have been funded by the City, because the
administrative transfer constituted an internal redeployment, and
expenditures for the new employee would be eligible for reimbursement
under the COPS grant. According to data provided by City officials, the new
employee earned $16,925 from the pay period ending January 14, 2011 to
the period ending February 25, 2011. As noted above, we determined the
accurate wages paid to the Technology Manager should have been $82,622.
Therefore, we question the difference in wages paid of $65,697, due to
indicators of supplanting for the period between the Technology Manager’s
June 5, 2011, administrative transfer and our March 7, 2011 entrance
conference. We also noted the continuing biweekly wage differential
between the Technology Manager and the new employee was $101.

      We also identified indicators of supplanting in fringe benefits in
correlation with the indicators of supplanting in wages. According to the
general ledger, at the time of our audit fringe benefits charged to the grant
totaled $34,549. City payroll records indicated $5,744 in fringe benefits
were paid for the new employee from January 3, 2011 to March 7, 2011.
For the reasons stated above, we question the difference in fringe benefits
paid of $28,805, due to indicators of supplanting for the period between the


                                     15
Technology Manager’s June 5, 2011, administrative transfer and our
March 7, 2011 entrance conference. We also noted the continuing biweekly
fringe benefit differential between the Technology Manager and the new
employee was approximately $488.

Inaccurate Payroll Accounting Records

      We determined each of the City’s accounting systems we reviewed
contained different expenditure amounts and starting dates for the
Technology Manager. At the time of our March 7, 2011 entrance conference,
City personnel provided us with a general ledger that indicated $86,090 in
wages paid between June 30, 2010 and February 11, 2011, while payroll
records and paycheck information indicated $87,544 in expenditures from
June 4, 2010 to February 25, 2011, and human resources records indicated
a higher pay rate than that actually being paid. The pay period ending
February 25, 2011 was not posted to the general ledger at the time of our
entrance conference, but we later requested an updated ledger to include
that period in our analysis. The updated ledger indicated $78,880 in wages
paid as of February 25, 2011, a reduction of $7,211 from the earlier ledger,
despite the addition of another pay period. We determined the reduction in
wages paid from the first general ledger to the more recent version was due
to a July 1, 2010 accounting adjustment of $(11,543) to begin the City’s FY
2011 that offset corresponding June 30, 2010 charges of $11,543 at the end
of the City’s FY 2010. The July 1, 2010 entry did not post to Albuquerque’s
general ledger until May 17, 2011, and was therefore not included in the
general ledger we received during our fieldwork. We also identified large
adjustments on the same dates for fringe benefits, in the amount of $5,131
on the last day of FY 2010 and $(5,131) on the first day of FY 2011. Based
on the unusual adjustments and recurrent lags in posting of accounting
entries to the general ledger, we determined the ledger was not adequate to
conduct payroll analysis. As a result, we used payroll records and paycheck
information to analyze wages paid. However, we were unable to identify any
other source of accounting information for fringe benefits. Therefore, we
used the general ledger for our analysis of fringe benefits charged to the
grant.

Changed Wage Rate

      For the first three pay periods indicated in the payroll records and
paycheck data for the APD Technology Manager, the employee’s wages
corresponded to a specific pay grade and step for this position, as noted in


                                      16
the City’s pay scale (as noted above, we determined the first of these pay
periods should not have been included in grant expenditures). However,
beginning with the fourth pay period and continuing for 16 of the 17
successive pay periods in the scope of this audit, the Technology Manager’s
wage rate was reduced by 3.49 percent. The reduced wage rate did not
correspond to any identifiable City pay grade and step for the position and
we could not identify any documentation to support the change.

Timesheets Lack Proper Approval

     At the time of our audit, we found the Technology Manager had
submitted weekly timesheets for approval from June 5, 2010 to February 25,
2011. While 33 timesheets completed by the Technology Manager appear to
have been approved by 1 of 2 supervisors, we noted 5 of 38 APD weekly
timesheets were not signed by any supervisor.

Fluctuating Fringe Benefit Expenditures

       According to the grant application, an APD Technology Manager was to
be hired to oversee the CISP and was to be 100 percent funded by the
grant. The grant budget included $121,803 for 3 years of fringe benefits.
We determined the grant application budgeted for fringe benefit elements
that included Social Security, Medicare, Health Insurance, Retirement,
Retiree Health, and COLA/Benefit Increase. 8 We did not identify any
COLA/Benefit Increase expenditures in the general ledger for this grant, but
according to the general ledger, Basic Life expenditures in the amount of
$379 and Unemployment in the amount of $445 were charged to the grant,
although both categories were not budgeted in the grant application.

      We found general ledger entries for biweekly fringe benefits charged to
the grant varied between $0 and $5,986. Two entries offset each other due
to an accounting adjustment, and a common expenditure of $1,923 occurred
for 8 of 16 entries. According to the general ledger for the grant, as of
February 25, 2011, wage expenditures totaled $78,880 and fringe benefits
totaled $34,549, or 43.8 percent of wages. Per the grant application
budget, biweekly fringe benefits were budgeted at 42.28 percent of wages.
We determined all fringe category expenditure percentages were higher than
budgeted, except for the ledger expenditures for Social Security and
Medicare which averaged 6.99 percent, lower than the 7.65 percent

     8
         Cost of Living Adjustment


                                     17
budgeted. The only fringe benefit element that matched the budgeted
amount was Retirement, at 19.01 percent.

Payroll Higher than Budgeted

       The salary budgeted in the grant application for the Technology
Manager was $253,968, paid over 3 years; this corresponds to an annual
salary of $84,656. Based on the Technology Manager’s biweekly wage rate
at the time of our audit, we calculated the actual annual wage rate to be
$112,632. The Technology Manager’s current annual salary exceeded the
salary budgeted in the grant application by $27,976, an increase of 33
percent. We calculated the current wage rate would exceed the budgeted
total in the 59th pay cycle. The grant’s start date was March 11, 2009, but
the Technology Manager’s effective start date did not occur until June 5,
2010. The 59th pay cycle from that date ends September 16, 2012. This
grant was scheduled to end on March 10, 2012, at which date wages
charged to the grant would not exceed the grant budget. In our judgment,
if City officials request an extension on the end date for this grant, COPS
should monitor the grant budget for wages to ensure it is not exceeded in
September 2012.

Fringe Benefits Higher than Budgeted

       Fringe benefits budgeted in the grant application for the Technology
Manager were $121,803, paid over 3 years; this corresponds to annual
fringe benefit payments of $40,601. We calculated the average biweekly
fringe benefit expenditure to be $1,818, at an annual rate of approximately
$47,277. We calculated this average biweekly fringe benefit rate would
exceed the budgeted total in the 67th pay cycle. The grant’s start date was
March 11, 2009, but the Technology Manager’s effective start date did not
occur until June 5, 2010. The 67th pay cycle from that date ends
January 11, 2013. This grant is scheduled to end on March 10, 2012, at
which date total fringe benefits would not exceed the grant budget. In our
judgment, if City officials request an extension on the end date for this
grant, COPS should monitor the grant budget for fringe benefits to ensure it
is not exceeded in January 2013.

Accountable Property

     OMB Circular A-133 requires grantees to implement controls to ensure
property purchased with federal funds is properly accounted for and


                                     18
safeguarded against loss from unauthorized use or disposition. As
previously noted in the Internal Control Environment section of this report,
in FY 2009 Single Audit finding 08-13, the City did not consistently tag
assets with identifying traceable characteristics.

      As illustrated in Table 3 above, three of the five grants audited had
expenditures for equipment. 9 Specifically, Grant No. 2006-CK-WX-0131 was
used to purchase 35 laptop computers, and hardware to install each laptop
into a patrol car. Grant No. 2008-CK-WX-0554 was used to purchase a
server and crime analysis and mapping software. Grant
No. 2009-CK-WX-0441 was used to purchase a plotter and supplies, as well
as crime analysis software. Because of the small number of transactions, we
attempted to verify all accountable property purchased with each grant,
except for Grant No. 2006-CK-WX-0131.

       For Grant No. 2006-CK-WX-0131, APD personnel purchased
320 laptop computers and installation equipment in 2007. The grant file
contained an accounting entry allocating 35 of those 320 laptops and
equipment to the grant, but the grant file did not note, and APD personnel
were unable to specifically identify, which 35 of the laptops purchased were
grant funded. During our fieldwork, APD personnel provided us with an
inventory list containing 35 laptops and stated the list was created after our
entrance conference. From the list, we tested a sample of 11 laptops and
installation equipment. We were unable to verify one laptop. We
determined the laptop had been received by a different officer from the
assigned officer; the assigned officer’s property card listed the laptop, but
the signature on the card for this line item did not match the signature for all
other items on the card. APD officials stated they were previously planning
to conduct a property card audit for all officers. We also were unable to
verify laptop docks and modems for four officers who had been rotated to
desk duty since being assigned their laptops; their vehicles had been
reassigned to other officers and we were unable to verify the installation
equipment. None of the laptops or installation equipment purchased with
grant funds were shown in inventory records or through property tags as
being grant funded or federally funded.

      For Grant No. 2008-CK-WX-0554, we verified the server purchased
with grant funds existed and was used as intended by the grant. While the

      9
          Grant Nos. 2008-CK-WX-0553 and 2010-CK-WX-0033 had no activity at the time of
our audit.


                                          19
equipment was not shown on inventory lists or property tags as being grant
funded or federally funded, the APD Property Room maintains an asset
tracking database that indicates whether a piece of equipment was grant
funded, as well as the purchase order number that purchased the
equipment. This can be used to track which grant funded the item. This
grant also funded map-based crime analysis software that is publicly
accessible via the City’s website. We were unable to identify any recognition
on the website that the crime mapping page was funded by a federal grant.

      For Grant No. 2009-CK-WX-0441, we verified the plotter and software
purchased with grant funds existed and were used as intended by the grant.
While the equipment was not shown on inventory lists or property tags as
being grant funded or federally funded, the APD Property Room maintains an
asset tracking database that indicates whether a piece of equipment was
grant funded, as well as the purchase order number that purchased the
equipment. This can be used to track which grant funded the item.

       Based on the results of our audit of accountable property, and the
findings previously noted in the Single Audit Report, we have determined the
City’s asset management system needs improvement, specifically related to
assignment and monitoring of grant funded equipment that was issued to
APD officers.

Reporting

      We reviewed the periodic financial reports (FSRs) and the Categorical
Assistance Progress Reports, and found the FSRs were generally timely, but
reports for one period were submitted 4 days late. 10 We also found progress
reports generally appeared to be accurate and complete, but the progress
report for one period was submitted 5 days late.

Financial Status Reports

      For Grant Nos. 2006-CK-WX-0131, 2008-CK-WX-0553, and
2008-CK-WX-0554, we determined eight FSRs were submitted for each
grant at the time of this audit; for Grant No. 2009-CK-WX-0441, we
       10
           In January 2010, the Office of Community Oriented Policing Services switched from
use of SF-269 Financial Status Reports (FSRs) to SF-425 Federal Financial Reports (FFRs),
effective with the report for the period ending 12/31/09. For consistency purposes, we use
the term ‘FSR’ throughout this report when discussing any quarterly financial reports
submitted to COPS by the City of Albuquerque for the audited grants.


                                            20
determined five FSRs were submitted; and for Grant No. 2010-CK-WX-0033,
we determined no FSRs were due or submitted.

      According to the COPS Technology Grant Program Owner’s Manual for
each grant, at the time of our audit FSRs were due 30 days after the end of
each reporting quarter. Prior to January 2010, FSRs were due within 45
days of the end of each quarter. As shown in Table 4 below, we reviewed
the four most recent FSRs for each grant in this audit and determined one
FSR was submitted 4 days late for Grant Nos. 2008-CK-WX-0553,
2008-CK-WX-0554, and 2009-CK-WX-0441. City officials stated the late
report occurred due to transition of grant reporting responsibilities to a new
employee. FSRs for Grant No. 2006-CK-WX-0131 appeared to be generally
timely, and no FSRs for Grant No. 2010-CK-WX-0033 were due or submitted
at the time of this audit.




                                      21
                                TABLE 4
                    FINANCIAL STATUS REPORT HISTORY
         REPORT PERIOD
        FROM - TO DATES          FSR DUE DATE      DATE SUBMITTED        DAYS LATE
 Grant No. 2006-CK-WX-0131
     07/01/07 – 09/30/07            11/14/07          10/23/07                0
     10/01/07 – 12/31/07            02/14/08          02/14/08                0
     01/01/08 – 03/31/08            05/15/08          05/14/08                0
                                             11
     04/01/08 – 06/30/08            09/28/08          08/15/08                0
 Grant No. 2008-CK-WX-0553
     01/01/10 – 03/31/10            04/30/10          04/30/10                0
     04/01/10 – 06/30/10            07/30/10          07/30/10                0
     07/01/10 – 09/30/10            10/30/10          11/03/10                4
     10/01/10 – 12/31/10            01/30/11          01/28/11                0
 Grant No. 2008-CK-WX-0554
     01/01/10 – 03/31/10            04/30/10          04/30/10                0
     04/01/10 – 06/30/10            07/30/10          07/30/10                0
     07/01/10 – 09/30/10            10/30/10          11/03/10                4
     10/01/10 – 12/31/10            01/30/11          01/28/11                0
 Grant No. 2009-CK-WX-0441
     01/01/10 – 03/31/10            04/30/10          04/30/10                0
     04/01/10 – 06/30/10            07/30/10          07/30/10                0
     07/01/10 – 09/30/10            10/30/10          11/03/10                4
     10/01/10 – 12/31/10            01/30/11          01/28/11                0
 Grant No. 2010-CK-WX-0033
 Grant award accepted 10/24/10; no FSRs were due or submitted at the time of this audit.
Source: COPS

      We also reviewed the four most recently submitted FSRs for each
grant for accuracy and found the reports generally accurately reflected grant
funded expenditures, although one FSR for Grant No. 2008-CK-WX-0554
was inaccurate and three FSRs for Grant No. 2009-CK-WX-0441 indicated
lower expenditures than the City’s general ledger for each period, as shown
in Table 5 below.

       For Grant No. 2008-CK-WX-0554, the fifth FSR submitted was $2,017
less than actual expenditures for the period, although cumulative amounts


       11
           The most recent Financial Status Report for Grant No. 2006-CK-WX-0131 was the
final financial report. According to the 2006 Technology Program Grant Owner’s Manual, the
final financial report was due 90 days after the grant end date.


                                            22
matched. We determined this discrepancy was due to an accounting
correction to remove overhead expenses that had been mistakenly added to
a prior FSR.

      For Grant No. 2009-CK-WX-0441, expenditures noted in FSRs 3 and 5
were less than City accounting records indicated and expenditures noted in
FSR 4 exceeded the accounting records for the period, although the
cumulative FSR total was less than the total according to the general ledger.
We determined this was affected in part by the City’s time lag in posting
journal entries to the general ledger; $30,799 in expenditures occurred
between October 22, 2010 and December 31, 2010, but were not posted to
the City’s general ledger until January 13, 2011 and January 15, 2011, and
accounting adjustments totaling $(16,673) occurred July 1, 2010, but were
not posted until May 17, 2011. Because of the City’s lag in posting
transactions to the general ledger, expenditures were not readily apparent to
City personnel at the time the reports were compiled and submitted.

                               TABLE 5
                  FINANCIAL STATUS REPORT ACCURACY
                                   PERIODIC                                  DIFFERENCE
         FSR                     EXPENDITURES                                 BETWEEN
        REPORT      PERIODIC         PER         CUMULATIVE    CUMULATIVE   PERIODIC FSR
 FSR    PERIOD    EXPENDITURES    ACCOUNTING        FSR        ACCOUNTING   & ACCOUNTING
 No.   END DATE     PER FSR        RECORDS      EXPENDITURES     RECORD       RECORDS
2008-CK-WX-0554
  5    03/31/10    $(2,017)              $0        $96,042       $96,042      $(2,017)
  6    06/30/10      10,668          10,668        106,710       106,710             0
  7    09/30/10            0              0        106,710       106,710             0
  8    12/31/10            0              0        106,710       106,710             0
2009-CK-WX-0441
  2    03/31/10          $0              $0            $0             $0            $0
  3    06/30/10            0         17,351             0         17,351        17,351
  4    09/30/10      50,714          41,763         50,714        59,114       (8,951)
  5    12/31/10      32,727          43,505         83,442       102,619        10,778
Source: COPS

Program Progress Reports

      According to the COPS Technology Program Grant Owner’s Manuals for
the grants audited, program progress reports will be required when
requested by the COPS Office. The owner’s manuals for all five audited
grants stated grantees will be notified when progress reports are due and


                                              23
COPS will provide instructions for submission, but did not provide specific
deadlines. However, according to COPS officials, at the time of our audit,
progress reports were due 30 days after the end of the previous calendar
year. Because it was more recent than the Grant Owner’s Manuals, we used
the specific deadline information provided by COPS officials for our analysis
of progress report timeliness. We did not identify any other performance
reports required for these grants.

      We determined APD Planning Division personnel collected information
from City accounting records, the grant managers' spreadsheets, and
invoices, as well as performance information from APD Technical Services
personnel, including the Technology Manager, to prepare progress reports.
The grant manager then completed progress reports electronically using the
COPS online submission form.

      We determined progress reports were submitted by year, rather than
by grant – for example, the progress report for calendar year (CY) 2009
reported on Grant Nos. 2008-CK-WX-0553, 2008-CK-WX-0554, and
2009-CK-WX-0441 in a single document. We evaluated statistical data for
progress reports for the two most recent years and determined that progress
reports were completed in a survey format through yes/no responses and
1-10 rating scales. Progress reports for Grant No. 2006-CK-WX-0131 did
not include space for narrative explanations; progress reports for the other
four grants included space for narrative explanations regarding delays, as
well as explanation of how COPS funding enhanced the grantee’s ability to
implement community policing activities. We determined reports for the two
most recent years contained all required performance data for each grant.
We also determined the progress report for the most recent year for each
grant was accurate to information located in the City’s grant files.

     Generally, we found progress reports were submitted timely.
However, we found one progress report was submitted 5 days late. The
progress report for CY 2008 included performance information for Grant Nos.
2008-CK-WX-0553 and 2008-CK-WX-0554, and was due February 14, 2009
and submitted February 19, 2009.




                                     24
                               TABLE 6
                   PROGRAM PROGRESS REPORT HISTORY
  RPT     REPORT PERIOD                                     DATE
  NO .   FROM - TO DATES               DUE DATE 12        SUBMITTED         DAYS LATE
 2006-CK-WX-0131
   1    01/01/07-12/31/07               05/19/08           04/30/08              0
   2    01/01/08-12/31/08               01/15/09           01/15/09              0
 2008-CK-WX-0553
   1    01/01/08-12/31/08               02/14/09           02/19/09              5
   2    01/01/09-12/31/09               01/30/10           01/19/10              0
   3    01/01/10-12/31/10               01/30/11           01/28/11              0
 2008-CK-WX-0554
   1    01/01/08-12/31/08               02/14/09           02/19/09              5
   2    01/01/09-12/31/09               01/30/10           01/19/10              0
   3    01/01/10-12/31/10               01/30/11           01/28/11              0
 2009-CK-WX-0441
   1    01/01/09-12/31/09               01/30/10           01/19/10              0
   2    01/01/10-12/31/10               01/30/11           01/28/11              0
 2010-CK-WX-0033
   1    01/01/10-12/31/10               01/30/11           01/28/11              0
Source: COPS

Compliance with Grant Requirements

      We reviewed grant requirements, which included the special conditions
attached to each grant award and the applicable COPS Technology Program
Grant Owner’s Manual for each grant. We determined there were seven key
grant requirements applicable to all five grants:

   1. Grant funds are to supplement, not supplant, currently committed
      funds.

   2. Recipients may request time extensions, which do not change grant
      funding levels.

   3. Budget modifications over 10 percent of the award amount must be
      approved by COPS prior to implementation.
       12
           Prior to January 1, 2010, Albuquerque’s progress reports were due 45 days after
the end of the calendar year. Beginning January 1, 2010, progress reports were due 30 days
after the end of the calendar year, which includes reports for the 2009 and 2010 calendar
years.


                                            25
  4. Recipient agrees to cooperate with monitors and evaluators of the
     COPS Technology Program.

  5. Sole source procurements in excess of $100,000 must be approved by
     COPS prior to procurement.

  6. Reports and publications resulting from the grant must be submitted
     to COPS for approval 20 days prior to release, with specific language
     recognizing the grant, DOJ, and COPS.

  7. The grantee agrees to notify the State Information Technology Point of
     Contact of the receipt of the grant award.

       Additionally, for grant 2010-CK-WX-0033, the grant award included a
condition requiring high risk grantees to comply with additional
requirements, if any. As stated previously, the City of Albuquerque was
classified as a high risk grantee by COPS and the Office of Justice Programs
in July 2010. Due to a previous determination of supplanting by the City,
COPS imposed a 4-year bar from COPS grant funding, effective from
September 2, 2010 to September 1, 2014.

       We found that APD grant program management and City accounting
personnel were generally unaware of the existence of the COPS Technology
Grant Owner’s Manuals or grant special conditions. We identified indicators
of supplanting, and question wage and fringe benefit expenditures in the
amount of $94,501, as detailed in the Headcount and Payroll section of this
report. We determined that a sole source procurement for $296,168 in
computer equipment occurred under Grant No. 2006-CK-WX-0131; however,
justification for the procurement was not provided to COPS. We found
reports and publications resulting from the grant were not submitted to
COPS and do not recognize the grant, DOJ, or COPS; these publications
include monthly and annual reports accessible through the City’s website, as
well as APD’s CrimeView crime mapping website, which is publicly accessible
and was developed entirely with COPS grant funds. Finally, we determined
APD personnel notified the New Mexico Information Technology Point of
Contact of the awards of three of the five grants; APD officials were unable
to provide confirmation that the state had been notified of Grant No.
2006-CK-WX-0131, which had been completed and closed out, and Grant
No. 2010-CK-WX-0033, which had not yet been implemented.



                                     26
Program Performance and Accomplishments

       According to the award documentation, the purpose of the COPS
grants awarded to the City of Albuquerque was to provide supplemental
funding to design, implement, install and support a Comprehensive
Information Systems Project (CISP). Each grant was intended to fund a
different portion of the CISP. As detailed below, we determined grant
funded expenditures generally matched the goals stated in the grant
applications, although two of the five grants were not yet implemented at
the time of our audit. We also determined one grant project was completed
timely and closed out, three grant projects could be completed before the
grant end dates, and one grant project could not be completed before the
end date within the schedule noted in the grant application. City officials
stated that grant projects have been generally delayed by the city’s
bureaucratic approval process – review and approval by City leadership is
required for grant applications and expenditures, which can take several
months.

       We noted that for each grant audited, COPS backdated the start date
for the grant funding in the award letter. We found the grant start dates
ranged from 216 to 315 days before the grant award letters were sent to the
City. In our judgment, because funding is not certain until the grant award
letter is issued, the time available for the City to complete each grant project
was immediately reduced. 13

      Grant No. 2006-CK-WX-0131, in the amount of $296,168, was
intended to upgrade mobile computer terminals. Specifically, we determined
this grant funded the purchase of 35 laptop computers, in-vehicle docking
stations, modems, antennas, and mounting hardware, and was performed
per the grant application. The grant start date was November 22, 2005 and
end date was November 21, 2008. The grant closed out April 14, 2009. We
determined this project was completed timely.

      Grant No. 2008-CK-WX-0553, in the amount of $2,057,660, was
intended to upgrade APD’s existing radio frequency infrastructure. We
determined this project had not yet been implemented. APD officials stated
this project was behind schedule due to delays by the FCC in setting the

       13
          It should also be noted grant funds were obligated between 187 and 273 days after
the grant start dates, and 9 to 42 days prior to issuance of the grant award letters.


                                            27
technology standard, which was delaying a project by the State of New
Mexico to install infrastructure that must be in place for the City’s upgrades
to be functional. The grant start date was December 26, 2007 and end date
was June 25, 2012, after an 18 month extension. At the time of this audit,
the project was 15 months from the grant end date; however, the original
implementation schedule detailed in the grant application indicated a 29
month project timeline. In our judgment, according to the original
implementation schedule detailed in the grant application, this project
cannot be achieved in the remaining time to the grant’s end date, despite
the previous granting of an 18 month end date extension by COPS.

      Grant No. 2008-CK-WX-0554, in the amount of $222,134, was
intended to procure crime analysis software and related hardware. We
determined this project has been partially implemented; the City has
developed and implemented the APD’s CrimeView software and website.
The grant start date was December 26, 2007 and end date was June 25,
2012, after an 18 month extension. In our judgment, the project stated in
the grant application can still be accomplished per the original
implementation schedule, due to a previous 18 month end date extension by
COPS, although APD officials stated their intent to re-scope approximately
$120,000 of the remaining funds for this grant to accommodate changed
needs. During our audit, we noted that APD planned to spend $14,580 from
this grant for training. Training expenditures were not included in the grant
budget and training was not an approved budget category for this grant;
charging this expenditure to the grant would require pre-approval by COPS.

       Grant No. 2009-CK-WX-0441, in the amount of $500,000, was
intended to procure a server, plotter, and 57 desktop computers, and fully
fund a new APD Technology Manager position to oversee the CISP. We
determined this project has been partially implemented; the Technology
Manager was hired in June 2010, and a plotter and analysis software were
purchased. The grant start date was March 11, 2009 and end date was
March 10, 2012. In our judgment, the project stated in the grant application
can still be accomplished per the original implementation schedule, although
APD officials stated they may need to re-scope a portion of the remaining
funds for this grant to accommodate changed needs. APD officials stated
they plan to sustain the Technology Manager position after the grant expires
by obtaining additional grant funds or by absorbing the salary through the
City’s general fund.




                                      28
       Finally, Grant No. 2010-CK-WX-0033, in the amount of $400,000, was
intended to fund storage area networks (SANs) for data and video, procure
analytical reporting tools, and train staff on use of the SANs and analytical
tools. We determined this project has not yet been implemented. The grant
start date was December 16, 2009 and end date was December 15, 2012.
In our judgment, the project stated in the grant application can still be
accomplished per the original implementation schedule, although APD
officials stated their intent to fully re-scope this grant to accommodate
changed needs.

Recommendations

     We recommend that the COPS Office:

1.   Ensure that the City of Albuquerque implements appropriate
     accounting procedures to assure that transactions are posted to the
     general ledger in an accurate and timely manner.

2.   Ensure that the City of Albuquerque implements appropriate budget
     monitoring procedures to assure that grant expenditures are charged
     to allowable budget categories established under the grant.

3.   Remedy the $4,922 in questioned costs as a result of unallowable
     personnel expenditures, including wages paid prior to the Technology
     Manager’s effective start date and in excess of regular salary.

4.   Remedy the $94,501 in questioned costs as a result of unallowable
     wage and fringe benefit expenditures, for position that were not
     backfilled.

5.   Ensure that the City of Albuquerque implements appropriate controls
     for consistent approval of timesheets for grant-funded employees.

6.   Ensure that the City of Albuquerque develops and implements policies
     and procedures to accurately monitor grant-funded equipment by
     tagging and identifying equipment purchased with grant funds.

7.   Ensure that the City of Albuquerque develops and implements policies
     and procedures to obtain prior approval from COPS for any sole source
     expenditures.



                                     29
8.    Ensure that City of Albuquerque publications created with grant funds
      are approved by COPS and contain appropriate language as required
      by the Special Conditions of the grant.

9.    Ensure that the City of Albuquerque notifies the State of New Mexico
      Information Technology Point of Contact of all COPS Technology
      Program grants awarded to the City as required in the Special
      Conditions of the grant.

10.   Ensure that the City of Albuquerque develops and implements policies
      and procedures to adequately monitor performance of grant funded
      projects in relation to project schedules.

11.   Ensure that the City of Albuquerque receives approval from COPS prior
      to allocating grant funds to any purposes that are not consistent with
      the grant applications.




                                     30
                                                                APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined indirect
costs, matching funds, program income, and monitoring of subgrantees
and contractors were not applicable to these grants.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of Office of Community Oriented Policing Services (COPS) grants on
November 22, 2005, through March 7, 2011. This was an audit of COPS
Technology Program Grant Nos. 2006-CK-WX-0131, 2008-CK-WX-0553,
2008-CK-WX-0554, 2009-CK-WX-0441, and 2010-CK-WX-0033, awarded
to the City of Albuquerque, New Mexico (City). The City received a total
of $3,475,962 in COPS Technology Program grant awards and had a total
of $477,668 in drawdowns through March 7, 2011.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS Technology Program Grant
Owner’s Manual and the award documents.

     In conducting our audit, we performed sample testing in four areas,
which were drawdowns, grant expenditures, personnel, and property
management. In this effort, we employed a judgmental sampling design to


                                     31
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. We identified samples of 5
drawdowns, 8 grant expenditures, 1 grant funded employee, and 14 items of
accountable equipment. This non-statistical sample design does not allow
projection of the test results to the universes from which the samples were
selected.

       In addition, we reviewed timeliness and accuracy of periodic financial
reports and progress reports, assessed compliance with grant requirements,
and evaluated performance to grant objectives; however, we did not test the
reliability of the financial management system as a whole.




                                     32
                                                                          APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

                 Description                          Amount              Page
       Unallowable Costs:

            Unallowable personnel costs                 $4,922              14
            Unallowable wages                           65,697              15
            Unallowable fringe benefits                 28,805              15
            Total Unallowable Costs                   $99,423

            Total Questioned Costs 14                 $99,423




       14
           Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.

                                            33
                                                                                              APPENDIX III

                        COPS RESPONSE TO DRAFT REPORT




                                                U.S. Department of Justice
                                                Office o/Community Oriented Policing Services (COPS)
Audit Liaison Division
Two Constitution Square
/45 N Street, NE
Washington, DC 20530
(202) 5/4-7022(Je/ephone)
(202) 616-4428 (Facsimile)




Via Elf!ctronic and U.s. Mail


To:                David M. Sheeren
                   Regional Audit Manager
                   Office of the Inspector General
                   Denver Regional Audit Office

From:              Donald J Lango
                   Management Analyst! Audit Liaison
                   COPS Audit Liaison Division

Date:              August 4, 201 1

Subject:           Response to Draft Audit Report for the City of Albuquerque, New Mexico

This memorandum is in response to your July 15,20 II draft audit report for the City of
Albuquerque, New Mexico. For ease of review, each audit recommendation is stated in bo ld and
underlined, followed by COPS' response to the recommendation.

Recommendation 1: Ensure that the City of Albuquerque implements appropriate
accounting procedures to assure that transactions arc posted to the general ledger in an
accurate and timelv manner.

The COPS Office concurs with the recommendation that the City of Albuquerque (Albuquerque)
should implement accounting procedures to assure that transactions are posted to the general
ledger in an accurate and timely manner.

 Discussion and Planned Action: Albuquerque concurred with this recommendation and
 advised that starting in 2012 the general ledger will be closed on a monthly basi s. Albuquerque
 also advised that it will compare drawdown requests to the approved budget document to ensure
 that only allowable expenditures are reported and that necessary adjustments have been made to
 remove unallowable expenditures from the general ledger. We will request that the grantee
 provide a copy of its accounting procedures and ensure that they adequately address thi s




                                                     34

David M. Sheeren, Regional Audit Manager
August 4, 20 II
Page 2

recommendation. We will forward this documentation to the Ola for review and closure of the
recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recorrunendation 1.

Recommendation 2: Ensure that the City of Albuquerque implements appropriate budget
monitoring procedures to assure that grant expenditures are charged to allowable budget
categories established under the grant.

The COPS Office concurs with the recommendation that Albuquerque should implement
procedures for budget monitoring to ensure that grant expenditures are charged to allowable
budget categories established under the grant.

Discussion and Planned Action:

Albuquerque concurred with this recommendation. We will request that the grantee provide a
copy of its implemented budget monitoring procedures and will review to detennine if the
procedures will ensure that grant expenditures are charged to allowable budget categories
established under the grant. We will forward this documentation to the OIG for review and
closure of the recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 2.

Recommendation 3: Remedv the $4,922 in questioned costs as a result of unallowable
personnel expenditures, including wages paid prior to the Technology Manager's effective
start date and in excess of regular salary.

The COPS Office concurs with the recommendation that Albuquerque remedy the $4,922 in
questioned costs as a result of unallowable personnel expenditures, including wages paid prior to
the Technology Manager's effective start date and in excess of regular salary.

Discussion and Planned Action:

Albuquerque concurred with the recommendation, but did not specify how it plans to remedy the
questioned costs. We will work with Albuquerque to remedy the questioned costs and will
provide documentation to the remedy.

 Request:

 Based on the discussion and planned action, COPS requests resolution of Recommendation 3.




                                                 35

David M. Sheerell, Regional Audit Manager
August 4, 2011
Page 3

Recommendation 4: Remedy the $94.501 in questioned costs as a result of unallowable
wage and fringe benefit expenditures. for positions that were not backfilled.

The COPS Office concurs with the recommendation that Albuquerque remedy the $94,50 I in
questioned costs as a result of unallowable wage and fringe benefit expenditures, for positions
that were not backfilled.

Discussion and Planned Action:

Albuquerque concurred with the recommendation, but did not specify how it plans to remedy the
questioned costs. We will work with Albuquerque to remedy the questioned costs and will
provide documentation to the remedy.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 4.

Recommendation 5: Ensure that the City of Albuquerque imnlements appropriate
controls for consistent approval of timesheets for grant-funded employees.

The COPS Office concurs with the recommendation that Albuquerque implement appropriate
controls for consistent approval of timesheets for grant-funded employees.

Discussion and Planned Action:

Albuquerque concurred with this recommendation and advised that it has implemented a policy
that requires all grant-funded employees to file weekly timesheets. However, Albuquerque did
not provide a copy of this policy. We will request that Albuquerque provide a copy of
procedures implemented and will review to ensure it sufficiently addresses this recommendation.
We will forward this documentation to the OIG for review and closure of the recommendation.

Request:

Based on the discussion and plarmed action, COPS requests resolution of Recommendation 5.

Recommendation 6: Ensure that the City of Albuquerque develops and implements
policies and procedures to accurately monitor grant-funded equipment by tagging and
identifying equipment purchased with grant funds.

The COPS Office concurs with the recommendation that Albuquerque develop and implement
policies and procedures to accurately monitor grant-funded equipment by tagging and identifying
equipment purchased with grant fund s.




                                                  36

David M. Sheeren, Regional Aud it Manager
August 4,2011
Page 4

Discussion and Planned Action:

Albuquerque concurred with this recommendation and advised that they arc implementing a
QR code-based system to improve its ability to track and manage grant-purchased inventory.
We will need to follow up with Albuquerque to obtain additional information on this new
process. Once we have done so, we will review this additional information to ensure that it will
adequately address this recommendation and will forward it to the OIG for review and closure of
the recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 6.

Recommendation 7: Ensure that the City of Albuquerque develops and implements
policies and procedures to obtain prior approval from COPS for any sole source
expenditures.

The COPS Office concurs with this recommendation that Albuquerque develops and implements
policies and procedures to obtain prior approval from COPS for any sole source expenditures.

Discussion and Planned Action:

Albuquerque concurred with this recommendation. Albuquerque advised that it intends to seek
approval from the COPS Office "Liaison" for any future so le source procurements in excess of
$ 100,000. We plan to request that Albuquerque develop or revise its procurement procedures to
ensure compliance with all grant requirements (to include obtaining prior approval from COPS
for any sole source expenditures from grant funds that arc in excess of $ 100,000). We will also
advise Albuquerque that approval is required from the COPS program staff. We will review
these procedures to ensure they will adequately address this recommendation and will forward it
to the OIG for review and closure of the recommendation.

Request:

Based on the discussion and planned action, CO PS requests resolution of Recommendation 7.

Recommendation 8: Ensure that City of Albuquerque publications created with grant
funds are approved by COPS and contain appropriate language as required by the Special
Conditions of the grant.

The COPS Office concurs with this recommendation that Albuquerque comply with all special
conditions of the grant.

 Discussion and Planned Action:

 Albuquerque generally concurred with thi s recommendation and agreed to ensure that whenever




                                                 37

David M. Sheeren, Regional Audit Manager
August 4, 20 II
Page 5

a project or equipment is highlighted in the publication that has been implemented using federal
funding, that the appropriate language will be inserted. Albuquerque also advised that it has
already started inserting the specific language into its website and Crime View package. The
COPS office needs to request additional information and clarification from the grantee before we
determine how to proceed in remedying thi s recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 8.

Recommendation 9: Ensure that the City of Albuquerque notifies the State of New Mexico
Information Technology Point of Contact of all COPS Technology Program grants
awarded to the City as required in the Special Conditions of the grant.

The COPS Office concurs with this recommendation that AJbuquerque comply with special
conditions of the grant by notifying the State of New Mexico Information Technology Point of
Contact of all COPS Technology Program grants awarded to the City.

Discussion and Planned Action:

Albuquerque concurred with this recommendat ion. We wi ll request that Albuquerque provide
documentation that it has notified the State of New Mexico Information Techno logy Point of
Contact of its award forthe COPS Technology Program Grant 20 10-CK-WX-0033. We wi ll
provide thi s documentation to the OIG for review and cl osure of the recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Reconunendation 9.

Recommendation 10: Ensure that the Citv of Albuquerque develops and implements
policies and procedures to adequately monitor pcrformance of grant funded projects in
relation to project schedules.

The COPS Officc concurs with this recommendation that Albuquerq ue develop and implement
policies and procedures to adeq uately mon itor performance of grant funded projects in relation to
project schedules.

Discussion and Planned Action:

Albuquerque concurred with thi s recommendation, and has identified procedures to monitor the
performance of grant funded projects in relat ion to project schedules. We need to fo llow up with
Albuqucrque and wil l request that Albuquerque provide a copy of its formalized procedures.
When we have received these procedures, we wi ll provide them to the OIG for review and
closurc of thi s recommendation.




                                                  38

David M. Sheeren, Regional Audit Manager
August 4, 2011
Page 6
Request:

Based on the di sc ussion and planned action, COPS requests resolution of Recommendation 10.

Recommendation II: Ensure that the City of Albuquerque receives approval from COPS
prior to allocating grant funds to any purposes that are not consistent with the grant
applications.

The COPS Office concurs with the recommendation that Albuquerque receive approval from
COPS prior to allocating grant funds to any purposes that are not consistent with the grant
applications.

Discussion and Planned Action:

Albuquerque concurred with this recommendation and advised that it will request written
approval from the COPS Office when allocating grant fund s that are not consistent with the
original grant application. We will follow up with Albuquerque to obtain additional information
and clarification to determine if they will need to submit a grant modification request for any of
their active grants. Should we determine that grant modifications are necessary, we will ensure
that Albuquerque submits the requests and we will provide the modification approval letters
from the Grant Administration Division to the DIG for review and closure of thi s
recommendation.

Request:

Based on the discussion and planned action, COPS requests resolution of Recommendation 11.

COPS would like to thank you for the opportunity to review and respond to the draft audit report.
ffyou have any quest ions, please contact me at 202-616-9215, or you may email at
donald.lango@usdoj.gov.




                                                  39

David M. Sheeren, Regional Audit Manager
August 4, 20 II
Page 7

cc:    Richard P. Theis (copy provided electronically)
       Justice Management Division

       Mary T. Myers (copy provided electronicall y)
       Justice Management Division

       Peter Borges, Grant Program Specialist
       COPS Grant Administration Division

       Cynthia A Bowie (copy provided electronically)
       Audit Liaison Division

       Nancy Daniels (copy provided electronically)
       Audit Liaison Division

       Raymond D. Schultz, Chief of Police (copy provided electronically)
       City of Albuquerque Police Department

       Robert 1. Perry, Chief Administrative Officer (copy provided electronically)
       City of Albuquerque Police Department

       Bill Slauson, Planning and Policy Director (copy provided electronicall y)
       City of Albuquerque Police Department

       Grant File     2006-CK-WX-O\3\ (Technology Grant)
                      2008-CK-WX-0553 (Technology Grant)
                      2008-CK-WX-0554 (Technology Grant)
                      2009-CK-WX-044 l (Technology Grant)
                      201O-CK-WX-003 3 (Technology Grant)

        Audit File

OR!: NMOOIOI




                                                 40

                                                                                                    APPENDIX IV

                     ALBUQUERQUE RESPONSE TO DRAFT REPORT

CITY OF ALBUQYERQYE

       Raymond D. Schult?, Chief of Police




                      Augus t 2, 201 1

                      Mr. David Sheeren
                      OIG Regional Audit Manager
                      United Slates Department of Justice
                      Office of the Inspector General
                      Denver Regional Audit Office
                      1120 Lincoln, Suite 1500
                      Denver, CO 80203

                      Dear Mr. Sheeren:

                      The following is the City of Albuquerque's response to the United Slates
                      Department of Justice, Office orlnspector General's Draft Audit Report. The
                      audit encompassed the following grants:

400 Roma NW                                        2006-CK-WX-0\3 1
                                                   2008-CK-WX-0553
                                                   2008-CK-WX-05S4
                                                   2009-CK-WX-044 1
Albuqu~"-lU("                                      2010-CK-WX-0033

                      There were eleven findings in the Draft Audit Report and this response will
New Mexico 87102      address each of these findings in turn:

                      Finding 1: Ensure that the City of Albuquerque implements appropriate
                      accounting procedures to assure that transactions are posted to the general ledger
www.c:olxJ.8!W        in an aceurate and timely mannt,T.
                                 o The Albuquerque Police Department concurs with this finding.
                                         • The Accounting Division has resolved a majority of the
                                            general bIger issues that resulted from the Peoplesoft
                                            conversion. In fiscal year 2012, the general ledger will be
                                            closed on a monthly basis to ensure that City departments
                                            and managers have accurate and timely data for reporting
                                            purposes. Before requesting reimbursement, Ihe depaltment
                                            will compare the drawdown requests 10 the approved
                                            budget document to ensure that only allowable
                                            expenditures are reported and necessary adjustments have
                                            been made to remove unallowable ex.penditures from the
                                            general ledger.




                                                                        "
                                                            41

Finding 2: Ensure that the City of Albuquerquc implements appropriate budget monitoring
procedures to assure that grant expcnditures are charged to allowable budget categories
established under the grant.
           o The Albuquerque Police Department concurs with this fi nding.
                   • The City of Albuquerque's financial system (Peoplesoft) has two
                       categories for revenues and appropriations. For revenue accounts, each
                       agency have a revenue account issued for their specifi c infonnation, such
                       as department or address. Funding is allocated to appropriation accounts
                       based on the description ofthe budget categories. The categories are
                       predefined and are listed as follows (equipment, supplies, travel,
                       contractual, etc.). The City's PeopleSoft accounting system does not
                       currently include an "Other" category. During future grant applications,
                       the Albuquerque Police Department will refrain from classifying any
                       proposed expenditures into the "Other" category to prevent any confusion
                       and system incompatibilities.


Finding 3: Remedy the $4,922 in questioned costs as a result of unallowable personnel
expenditures, including wages paid prior to the Technology Manager's effective start date and in
excess of regular salary.
            o The Albuquerque Police Department concurs with this finding.


Finding 4: Remedy the $94,501 in questioned costs as a result of unallowable wage and mnge
benefit expenditures, for position that were not backfilled.
           o Thc Albuquerque Police Department concurs with this finding.


Finding 5: Ensure that the City of Albuquerque implements appropriate controls for consistent
approval of time sheets for b'l'ant. fund ed employees.
           o The Albuquerque Police Department concurs with this fi nding.
                   • In September 201 0, the Albuquerque Police Department implemented a
                       policy that requires all grant· fundcd employees to fil e weekly timesheets.
                       At the beginning of the TeclUlology Manager's tenure (before the
                       implementation of the policy), there was some confusion whether a
                       timesheet was required for the position. As an overall process
                       improvement, the Department is considering implementing a web-based
                       timekeeping program that will greatly improve the Department's ability to
                       track employee time and develop a consistent approval process. The new
                       timekeeping program will be implemented by the end of201 1.




                                                 42

Finding 6: Ensure that the City of Albuquerque develops and implements policies and
procedures to accurately monitor grant-funded equipment by tagging and identifYing equipment
purchased with h'Tant funds.
           o The Albuquerque Police Department concurs with this finding.
                   • Each year, the Albuquerque Police Department (APD) purchases hundreds
                       of items with grant funds. Typically, APD uses a barcode system that
                       attaches a multi-digit number to a line in a database that contains
                       additional information. Items over $5,000 in value arc included on a
                       master list and each division's inventory. Inventory lists are verified every
                       six months. In order to improve the Department's ability to track and
                       manage grant~purchased inventory, the Department is in the process of
                       implementing a QR code-based system. Although initially used for
                       tracking parts in vehicle manufacturing, QR codes are now used in a much
                       broader context. APD will generate QR codes for free via the internet and
                       use n free app on any smart phone to decode the image. Each image will
                       be coded with the name of the grant that was used to purchase the item, as
                       well as projcct activity and account information. A QR code will be
                       affixed to euch grant-purchased item.


Finding 7: Ensure that the City of Albuquerque devclops and implements policies and
procedures to obtain prior approval from COPS for any sole source expenditures.
           o The City of Albuquerque concurs with the finding.
                   • The Albuquerque Police Department followed and met the City of
                      Albuquerque's purchasing requirements for sole-source expenditures
                      whl-il it contracted for a purchase of$296,168 for computer laptops. The
                      Planning Division was unaware that it needed approval from the COPS
                      Offiee as well. Future requests for purchases of sole-source items totaling
                      more than $100,000 will be sent to the COPS Office liaison for approval
                      before the purchase is initiated.
                                                                                                       :
Finding 8: Ensure that City of Albuquerque publications created with grant funds are approved
by COPS and contain appropriate language as requircd by the Special Conditions of the grant.           I
           o TI1C City of Albuquerque concurs with the finding.
                  • The Planning Division generates the majority of publications that detail
                     new advanccments implemented by the Department, including monthly
                      and annual reports. The production of the publications is not funded with
                      grants received from the federa l government. HowcvCT, the Department's
                     publications often highlight projects and equipment that were purchased
                      with grant fundi ng. The Planning Division manages the Department's
                      grants and is in an excellent position to identify when federal grants were
                      used to purchase equipment, technology and other items that ure
                      highlighted in the publications. The Planning Division will take special
                      care to make sure that whenever a project or equipment is highlighted in




                                                 43

                       the publication that has been implemented using federal funding, that the
                       appropriate language will be inserted. In fact, APD has already begun to
                       insert the specific language into its website and CrimeView package.


Finding 9: Ensure that the City of Albuquerque notifies the State of New Mexico Infonnation
Technology Point of Contact of all COPS Technology Program grants awarded to the City as
required in the Special Conditions of the grant.
            a The City of Albuquerque concurs with this finding.
                   • As demonstrated by compliance in several prior awards, the Albuquerque
                       Police Department has made the effort to notify the State of New Mexico
                       Infonnation Technology Point ofContaet, usually via email. Due to the
                       transition of staff, the 2006 notification could not be located. The 20 I 0
                       notification was hampered due to the original point of contact's
                       retirement. The Albuquerque Police Department has identified the new
                       point of contact and will generate the notification email.


Finding 10: Ensure that the City of Albuquerque develops and implements policies and
procedures to adequately monitor perfonnance of grant funded projects in relation to project
schedules.
           o The Albuquerque Police Department concurs with this finding.
                  • Once an IT project is funded by a grant, the project must be implemented,
                      tracked, and documented to demonstrate how the funds were uti lized
                      within the guidelines of the grant funding agency. The day to day manager
                     of the grant funded IT project responsibilities should include:
                          • Setting up the internal processes of the Technical Services
                              Division for implementation of the project upon approval of the
                              grant funds.
                          • Work with the APD Planning Division to review the budget
                              available as well as the requirements of the grant funding agency.
                              This may require adjustment of the proposed budged based on
                              actual monies approved.
                          • Coordinate with all areas for project implemcntation.
                          • Identifying resources need to implement the project plan.
                          • Meet regularly with your Grant Manager to identify the guidelines
                              for expenditure of the funds, required paperwork, approval and
                              routing process, and for infonnation regarding any reports required
                              throughout the project and grant period.
                          • Develop a procedure for internal budget controls and monitoring
                              within the project.
                          • Develop a procedure for completing the required reports with the
                              project.
                          • Develop a procedure for keeping all divisions, units, and agencies
                              apprised of the project's progress and accomplishments on a
                              regular basis.




                                                 44

                          •  Develop and publish specific timelines for project implementation
                             for all involved in the project, using the project management
                             processes as outlined below.
                  •   Generally, the process will include the (Initiating Stage, Plmming and
                      Design Stage, Production or Execution Stage, MonitOling and Controlling
                      Stage and Closing Stage).


Finding I I: Ensure that the City of Albuquerque receives approval from COPS prior to
allocating grant funds to any purposes that are not consistent with the grant applications.
            o The Albuquerque Police Department concurs with this finding.
                    • In the future, APD Planning Division staff will request written approval
                       from the COPS Office when allocating grant funds that are not consistent
                       with the original grant application.

If you have any questions or comments about our responses, please do not hesitate to call or
email my Planning and Policy Director, William Slauson, at (50S) 768-2427 /
bslauson@cabg .gov.




-f:Q
Raymond D. Schultz
Chief of Police




                                                45

                                                                 APPENDIX V

       OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
              ANALYSIS AND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE REPORT

      The OIG provided a draft report of this audit to the City of
Albuquerque (City) and Office of Community Oriented Policing Services
(COPS). COPS’ comments are incorporated in Appendix III of this report
and the City’s comments are incorporated in Appendix IV. The following
provides the OIG analysis of the responses and summary of actions
necessary to close the report.

Analysis of COPS’ Response to the Draft Report

      In its response to the draft report, COPS stated that it agreed with all
11 recommendations. COPS said it would coordinate with the City to
remedy questioned costs and obtain documentation showing the City had
implemented our management recommendations. Based on the City’s
responses, COPS requested resolution of all 11 OIG recommendations. Our
analysis of COPS’ response is discussed below in Summary of Actions
Necessary to Close the Report.

Analysis of the City of Albuquerque’s Response to the Draft Report

      In its response to the draft report, the City concurred with all
11 recommendations. The City’s response to the draft report includes the
status of corrective actions planned or taken on management
recommendations in the report, but the City did not address corrective
actions planned or taken on questioned costs. Our analysis of the City’s
response is discussed below.

Summary of Actions Necessary to Close the Report

1.    Resolved. In its response to the draft report, the City of Albuquerque
      said it concurs with our recommendation that the City implement
      appropriate accounting procedures to assure that transactions are
      posted to the general ledger in an accurate and timely manner. The
      City’s response stated that a majority of accounting issues that
      resulted from a software conversion had been resolved. The City also
      stated the general ledger will be closed on a monthly basis and


                                      46
     drawdown requests will be compared to budget documents to ensure
     that only allowable expenditures are reported.

     In its response, COPS said it agrees with the recommendation and will
     coordinate with the City to obtain a copy of its accounting procedures
     and ensure that they adequately address this recommendation. COPS
     requested resolution of this recommendation.

     This recommendation can be closed when we review documented
     procedures that assure transactions are posted to the general ledger in
     an accurate and timely manner.

2.   Resolved. In its response to the draft report, the City of Albuquerque
     said it concurs with our recommendation that the City implement
     appropriate budget monitoring procedures to assure grant
     expenditures are charged to allowable grant budget categories. The
     City’s response stated the City will not classify expenditures in the
     “Other” budget category on future grant applications, as the City’s
     accounting software does not support an “Other” category.

     In its response, COPS said it agrees with the recommendation and will
     coordinate with the City to obtain documentation of implemented
     budget monitoring procedures and review documentation to ensure
     that grant expenditures are properly charged to the grant. COPS
     requested resolution of this recommendation.

     This recommendation can be closed when we review documented
     procedures that assure transactions are charged to grants using
     allowable budget categories.

3.   Resolved. In its response to the draft report, the City of Albuquerque
     said it concurs with our recommendation that the City remedy $4,922
     in questioned costs as a result of unallowable personnel expenditures
     that were paid prior to the Technology Manager’s effective start date
     and in excess of regular salary. The City did not state how it plans to
     remedy the questioned costs.

     In its response, COPS said it agrees with the recommendation and will
     work with the City to remedy the questioned costs and will provide
     documentation of the remedy. COPS requested resolution of this
     recommendation.


                                    47
     This recommendation can be closed when the questioned costs have
     been remedied.

4.   Resolved. In its response to the draft report, the City of Albuquerque
     said it concurs with our recommendation that the City remedy $94,501
     in questioned costs as a result of unallowable personnel expenditures
     for positions that were not backfilled. The City did not state how it
     plans to remedy the questioned costs.

     In its response, COPS said it agrees with the recommendation and will
     work with the City to remedy the questioned costs and will provide
     documentation of the remedy. COPS requested resolution of this
     recommendation.

     This recommendation can be closed when the questioned costs have
     been remedied.

5.   Resolved. In its response to the draft report, the City of Albuquerque
     said it concurs with our recommendation that the City implement
     appropriate controls for consistent approval of timesheets for grant
     funded employees. The City said it is considering implementing a
     web-based timekeeping program by the end of 2011 to improve
     tracking of employee time and create a more consistent approval
     process.

     In its response, COPS said it agrees with the recommendation and will
     coordinate with the City to obtain documentation of implemented
     policies and review documentation to ensure it sufficiently addresses
     this recommendation. COPS requested resolution of this
     recommendation.

     This recommendation can be closed when we review documented
     procedures that assure grant funded employee timesheets are
     consistently approved.

6.   Resolved. In its response to the draft report, the City of Albuquerque
     said it concurs with our recommendation that the City implements
     policies and procedures to accurately monitor grant funded equipment.
     The City said it inventories and tags items over $5,000 and verifies
     inventory lists every 6 months. The City said it is implementing a new


                                    48
     code-based inventory system to improve its ability to manage grant
     funded equipment.

     In its response, COPS said it agrees with the recommendation and will
     coordinate with the city to obtain additional information on the new
     inventory process. COPS requested resolution of this
     recommendation.

     This recommendation can be closed when we review documented
     procedures that assure grant-funded equipment is accurately
     monitored in City inventory records.

7.   Resolved. In its response to the draft report, the City of Albuquerque
     said it concurs with our recommendation that the City develop and
     implement policies and procedures to obtain approval from COPS prior
     to sole source expenditures. The City said it followed its own
     purchasing requirements for sole source expenditures when it
     contracted for a $296,168 computer purchase, but was unaware that
     COPS approval was required. The City said it will request COPS
     approval of future sole source expenditures in excess of $100,000.

     In its response, COPS said it agrees with the recommendation and will
     request that the City develops or revises its procurement procedures
     to ensure compliance with all grant requirements, including obtaining
     prior approval from COPS program staff for sole source expenditures in
     excess of $100,000. COPS said it will review procedures to ensure
     they adequately address this recommendation. COPS requested
     resolution of this recommendation.

     This recommendation can be closed when we review documented
     procedures that assure City procurement procedures are in compliance
     with grant requirements.

8.   Resolved. In its response to the draft report, the City of Albuquerque
     said it concurs with our recommendation that City publications created
     with grant funds are approved by COPS and contain appropriate
     language as required by grant conditions. The City said it will insert
     appropriate language when publications highlight projects or
     equipment funded with federal funding and has begun to insert
     language in its website and CrimeView software.



                                    49
      In its response, COPS said it agrees with the recommendation and will
      request additional information and clarification from the City before it
      determines how to remedy this recommendation. COPS requested
      resolution of this recommendation.

      This recommendation can be closed when we review documented
      procedures that assure that City publication practices are in
      compliance with grant requirements.

9.    Resolved. In its response to the draft report, the City of Albuquerque
      said it concurs with our recommendation that the City notify the State
      Information Technology Point of Contact of all COPS Technology
      Program grant awards as required by grant conditions. This City said
      it usually notifies the Point of Contact via email, but could not locate
      the 2006 notification due to a staff transition and the 2010 notification
      was incomplete due to the Point of Contact’s retirement. The City
      stated it has identified the new Point of Contact and will send
      notification of the 2010 grant via email.

      In its response, COPS said it agrees with the recommendation and will
      request that the City provide documentation that it has notified the
      State of New Mexico Information Technology Point of Contact of the
      City’s receipt of the 2010 grant award. COPS requested resolution of
      this recommendation.

      This recommendation can be closed when we review documentation of
      the City’s notification of the State of New Mexico Information
      Technology Point of Contact of the city’s receipt of COPS Technology
      Program Grant No. 2010-CK-WX-0033.

10.   Resolved. In its response to the draft report, the City of Albuquerque
      said it agrees with our recommendation that the City develops and
      implements policies and procedures to assure that grant funded
      projects perform according to schedule. The City said it would develop
      implementation procedures for grant funded projects, and develop and
      publish specific timelines for project implementation using project
      management processes, including Initiating, Planning and Design,
      Production or Execution, Monitoring and Controlling, and Closing.

      In its response, COPS said it agrees with the recommendation and will
      follow up with the City. COPS said it will request documentation of


                                      50
      formalized procedures for project implementation and performance
      monitoring.

      This recommendation can be closed when we review documentation of
      the City’s implementation and monitoring procedures for grant-funded
      projects.

11.   Resolved. In its response to the draft report, the City of Albuquerque
      said it agrees with our recommendation that the City receive approval
      from COPS prior to allocating grant funds to any purposes that are not
      consistent with the grant applications. The City said it will request
      written approval from COPS in the future for grant funded
      expenditures that are not consistent with the original grant application.

      In its response, COPS said it agrees with the recommendation and will
      follow up with the City to determine if the City needs to submit a grant
      modification request for any of the City’s active grants. COPS said it
      will ensure that the City submits any necessary grant modification
      requests.

      This recommendation can be closed when we review documentation
      that determines whether grant modification requests are necessary for
      any of the City’s active grants, as well as documentation of any grant
      modification requests that are submitted to COPS by the City.




                                      51
